                                        SOCIAL SECURITY

MEMORANDUM                                                                            Refer To:

Date:   September 10, 2004

To:     Martin H. Gerry
        Deputy Commissioner
         for Disability and Income Security Programs

From:   Assistant Inspector General
         Audit

Subject: Evaluation of the Accelerated eDib System – Sixth Assessment (A-14-04-15005)



        The Social Security Administration’s (SSA) Office of the Inspector General has
        completed its sixth assessment in our ongoing evaluation of the Accelerated eDib
        (AeDib) initiative (formally the Electronic Disability or eDib initiative). We conducted this
        sixth assessment from April 2004 through August 2004 at SSA Headquarters in
        Baltimore, Maryland. While we did not conduct an audit of the AeDib initiative, our
        assessment addresses issues that further secure the processing of sensitive SSA
        information by the Disability Determination Services offices (DDS).

        BACKGROUND

        The enhancement of DDS systems to support paperless claims processing is included
        as one of the four major software initiatives for AeDib.1 DDSs use a variety of hardware
        and software platforms to store, process, and protect sensitive SSA information. For
        example, as of March 2004, 51 IBM AS/400 midrange computers (AS/400) are used by
        52 of the 54 DDSs2 as the hardware platform for case processing. Sensitive SSA data,3
        processed and stored by each DDS, should be protected from inappropriate or
        unauthorized access, use, and disclosure.

        Operating system upgrade and maintenance procedures are one consideration in the
        overall security and administration of a DDS AS/400. Operating system upgrades occur


        1
          Final Report prepared by Booz Allen Hamilton, eDib Program Management Plan, January 31, 2002,
        page II-4.
        2
          The 52 DDSs include 48 States, District of Columbia, Puerto Rico, Guam and the Virgin Islands. Guam
        and the Virgin Islands disability cases are processed on an AS/400 located in the Western Program
        Service Center. Nebraska and New York use a different hardware platform.
        3
          Sensitive data downloaded from SSA to the DDS claims processing system include claimant SSN,
        name, address, phone number, and date of birth.
Page 2 - Martin H. Gerry

when a DDS installs a new version/release of the AS/400 operating system.4 Operating
system maintenance is achieved by installing fixes provided by IBM.5 DDSs that
subscribe with IBM, receive alerts6 of AS/400 fixes.

The Government Accountability Office7 (GAO) reported8 that patch management9 is a
critical process used to help alleviate many of the challenges involved with securing
computing systems from attack. Figure 1 illustrates the dramatic growth in security
vulnerabilities from 1995 to 2003.

Figure 1. Security Vulnerabilities 1995-2003
    Vulnerabilities
      5000
                                                                                           GAO stated that
      4500                                                                                 from 1995 to 2003
      4000                                                                                 the CERT®
      3500                                                                                 Coordination
      3000                                                                                 Center10 reported
      2500                                                                                 just under
      2000                                                                                 13,000 security
      1500
                                                                                           vulnerabilities that
      1000
                                                                                           resulted from
       500
                                                                                           software flaws.
          0
               1995   1996    1997    1998     1999    2000    2001    2002     2003
      Source: GAO analysis based on Carnegie-Mellon University CERT® Coordination Center


The SSA and its affiliated DDSs each year request about 15 million medical and other
records on behalf of claimants for Social Security disability benefits. SSA stated that
the Document Management Architecture (DMA) project, which includes electronic
medical evidence, is part of the AeDib effort that will create paperless automation to
improve the disability claim processing. DMA is an Agency-level initiative to define and
develop the architecture and an infrastructure to address the known and future
document capture, indexing, storage, retrieval, and management needs. The electronic
medical evidence project gives medical providers electronic options for submitting
records and reports on behalf of disability claimants.



4
  IBM released Version 5 Release 3 of the operating system in June 2004. Version 5 Release 2 of the
operating system is considered current for DDSs because the latest release has not been tested.
5
  IBM periodically creates fixes to correct problems or potential problems found within a particular IBM
licensed program. Fixes can consist of documentation and/or code. Fixes are also called Programming
Temporary Fixes (PTFs). A PTF is temporary only in the sense that it disappears because it is integrated
in the next release of the operating system.
6
  Alerts provide automatic problem prevention notification and defect identification and resolution
information specific for a DDS operating system.
7
  The Government Accountability Office was formally known as the General Accounting Office.
8
  GAO Report GAO-04-816T, Information Security: Agencies Face Challenges in Implementing Effective
Software Patch Management Processes, June 2, 2004, pages 3 and 4.
9
  Patch management is the process of applying software code into a program to temporarily fix a defect.
10
   This a center of Internet security expertise at the Software Engineering Institute, a Federally funded
research and development center operated by Carnegie-Mellon University.
Page 3 - Martin H. Gerry

In the paper environment, consultative examinations are submitted to the DDSs with a
signature. This signature “… attests to the fact that the medical source doing the
examination or testing is solely responsible for the report contents and for the
conclusions, explanations, or comments provided with respect to the history,
examination, and evaluation of laboratory test results.”11 To increase the medical
providers’ use of electronic records in lieu of paper records, SSA has developed a free,
easy-to-use website called eData that can safely upload the electronic medical
evidence.

As defined by the National Institute of Standards and Technology (NIST),12 “Electronic
authentication (e-Authentication) is the process of establishing confidence in user
identities that are electronically presented to an information system.” Each
e-Government application should be rated by its Agency on a 1 to 4 scale where Level 1
provides the lowest authentication assurance and Level 4 provides the highest
assurance. An agency determines the assurance level of its application by conducting
an e-Authentication Risk Assessment. As the consequences of an authentication error
becomes more serious, the required level of assurance increases and determines what
controls should be in place. Including other controls that vary according to the
assurance level, remote authentication is generally determined by the application’s
users presenting some secret only they know or possess, such as a password.

For Electronic Consultative Examination (eCE) submissions via eData, the authenticity
of the submission is determined by the following process. First, the DDS invites a CE
provider to participate in the process and if the invitation is accepted, the DDS and SSA
coordinate to establish an authorized Internet account. Next, after the medical provider
completes a valid logon onto SSA’s Internet account, the CE provider links the
electronic versions of the CE report and medical evidence to the submission screen and
designates which DDS will receive the files. To submit these files, the CE provider must
click the Internet “Agree” button on the Click and Sign Certification screen (see
Attachment D). Clicking on the “Agree” button creates the CE provider’s electronic
signature that certifies the accuracy of the eCE files submitted. The process ends with
the Agency sending the CE provider a confirmation message. This certification process
is referred to by the Agency as eCE Click and Sign.

The purposes of our sixth assessment of AeDib were to: (1) determine whether the
Agency has implemented an operating system upgrade and maintenance program for
the IBM AS/400 computer systems used at DDSs; and (2) review the effectiveness of
the Agency’s authentication risk assessment in addressing the risks associated with the
eCE Click and Sign process.




11
  See 20 C.F.R. §§ 404.1519n(e), 416.919n(e).
12
  NIST Special Publication 800-63, version 1.0, “Electronic Authentication Guideline”, June 2004,
page vi.
Page 4 - Martin H. Gerry

RESULTS OF OUR EVALUATION

We identified two areas of concern.

     1. AS/400 operating system upgrade and preventive maintenance fixes were not
        current for DDS AS/400s. As a result, AS/400s are vulnerable to unnecessary
        system failures or breaches of security. Improvements are needed in the policies
        and procedures for the DDS AS/400 upgrade and maintenance guidance.

     2. The eCE Click and Sign process for consultative examinations began as the
        DMA application risk assessment was concluding. As a result, there is a
        possibility that all risks for the Click and Sign process have not been identified.
        Now that the eCE Click and Sign process is expanding from a pilot, additional
        risks need to be considered.

Suggestions for an Operating System Version Upgrade and Maintenance Program

We analyzed the fourth quarter Calendar Year (CY) 2003 and first quarter CY 2004
IBM Performance and Information Reports.13 As of March 2004, we determined that
31 of the 51 DDS AS/400 systems had noncurrent operating systems.14 Only 1 of the
remaining 20 systems with current operating systems and none of the 31 noncurrent
operating systems had a 2004 cumulative fix level. A cumulative fix level is the primary
method of performing preventive maintenance for AS/400 operating systems. It is
usually issued quarterly and contains a cumulative package of group and individual
fixes issued more frequently. We were advised that the information contained in this
report is not validated by SSA for accuracy. In addition, except for observing the
cumulative fix level in the report, SSA does not know whether DDSs are current with fix
updates.15 See Attachment A for a listing of State Operating System Data by region.

SSA has made great strides to upgrade the operating systems for the AS/400s used by
DDSs. In December 2003, 46 of the 51 DDS AS/400 systems had noncurrent operating
systems. However, 15 upgrades were accomplished from December to March, which
reduced the number of noncurrent operating systems to 31 and we were advised that as
of July 14, 2004, only four DDSs require upgrades. These strides were achieved to
allow SSA to take advantage of the Websphere MQ Series functionality16 in support of
AeDib, not for version control purposes. Likewise, the cumulative fix levels for
21 AS/400s improved from December to March.17 However, because such a large
number of DDS systems have not installed a 2004 cumulative fix level, improvements in
the program are needed to ensure systems are updated.


13
   This quarterly report was designed for SSA to monitor the performance metrics of the AS/400 systems
at DDSs. It also includes operating system version and maintenance data.
14
   The current operating system used by DDSs is version 5 release 2.
15
   IBM issues a variety of fix updates. A description of those updates is presented in Attachment B,
Program Temporary Fixes.
16
   Websphere MQ Series allows SSA to easily exchange information across different computer platforms,
integrating existing business applications in the process.
17
   Thirteen of the improvements were attributable to the operating system upgrade.
Page 5 - Martin H. Gerry

SSA’s draft national disaster recovery plan for DDS AS/400s18 is less effective if the
operating system version on the AS/400 maintained at the National Computer Center
(NCC)19 is not the same as those in the DDSs. The NCC AS/400 is using
version 5 release 2 of the operating system, which is more current than 31 DDSs,
as of March 2004. We were advised that cases processed on an AS/400 with an earlier
version of the operating system will not function on a newer release of the operating
system.

If a DDS remains on a noncurrent AS/400 operating system release too long, it is likely
to incur higher costs for an upgrade. Higher costs are incurred when a DDS needs to
do a multiple step upgrade, which would require implementing an interim release just to
be able to upgrade to the latest release. Upgrade costs are further increased if
subsequent releases, which supported a single step upgrade, are withdrawn from
marketing. In most of these cases, a DDS would then need to hire custom services to
perform a potentially labor intensive upgrade from the back-level release to a current
one.

If DDSs are not current with maintenance fixes, they increase the risk of unplanned
outages, system failures, and/or security breaches. A fix maintenance strategy is
recommended by IBM to potentially reduce the impact on operations that result from
unplanned outages and program failures. In July 2004, we identified 5 security fixes
issued in 2004 for the 20 DDS AS/400s on a current operating system. Because SSA
limits its tracking of fix updates to a review of the cumulative fix levels in the quarterly
IBM Performance and Information Reports, it would not know whether all necessary
fixes have been tested and installed by the DDSs. SSA needs a process to determine
whether other necessary fixes, such as individual fixes made available to DDSs with
IBM alerts have been tested and installed.

The DDSs are expected to provide a controlled environment that meets SSA’s minimum
security requirements. The DDS Security Document (DSD)20 was established as a
comprehensive approach to DDS security in August 2001. In January 2002, SSA
issued a supplement for the DSD, which contains policies, procedures, and
recommendations for providing security on the AS/400.21 In September 2003, SSA
issued an update to the DSD, merging the AS/400 supplement into the DSD.
Unfortunately, as the supplement was merged into the updated version of the DSD, the
AS/400 upgrade and maintenance guidance in the supplement was omitted.22 See
Attachment C for the AS/400 Operating System Upgrade and Maintenance Guidance
contained in the supplement.


18
   Draft National Disaster Recovery Plan for IBM AS/400 (i-Series) Processors in the Disability
Determination Services, July 2003.
19
   In the event of a disaster, the DDS cases would be processed on this AS/400 until arrangements can
be made for a permanent replacement of the AS/400 at the DDS.
20
   Disability Determination Services Security Document, September 2003.
21
   Disability Determination Services Security Document Supplement, AS/400 Platform Security Settings,
January 31, 2002.
22
   Disability Determination Services Security Document Supplement, AS/400 Platform Security Settings,
Chapter IV, Upgrade and Maintenance Guidance, January 31, 2002, pages 19 to 23.
Page 6 - Martin H. Gerry

There are no documented SSA guidance and procedures to monitor and enforce the
implementation of current operating system versions and fixes for all DDSs processing
cases on an AS/400 and the NCC AS/400 used for the National DDS disaster recovery
planning. For the most part, SSA relies on IBM for these programs. We encourage the
Agency to:

     •   Restore the AS/400 operating system upgrade and maintenance guidance for
         DDSs that was contained in the January 2002 AS/400 supplement.

     •   Establish and implement policies and procedures to monitor and enforce
         AS/400 operating system upgrade and maintenance for all DDS
         AS/400s promoting greater involvement of SSA in the process.

     •   Extend the AS/400 security settings monitoring to include AS/400 operating
         system upgrades and maintenance fixes, if feasible.

Risk Related Suggestions for the eCE Click and Sign Process

We reviewed the Agency’s E-Authentication Risk Assessment and its Risk Mitigation
Strategy for the piloted eCE Click and Sign process. Although we believe SSA has
taken significant steps for meeting its goal to provide reasonable assurance23 that the
sender of the eCE has been authenticated, a broader-scoped risk assessment is
needed to address risks not covered by these documents. We based our conclusions
on our interviews with project personnel, our review of the documentation provided, and
our comparison of these documents to the risk assessment portion of the Office of
Management and Budget’s (OMB) e-Authentication Guidance.

We reviewed the Agency’s authentication risk assessment and mitigation reports for the
eCE Click and Sign process and determined that the Agency’s risk assessment
complied with the applicable sections24 of the OMB criteria. The OMB criteria require
the completion of the following five steps to determine the appropriate assurance level:

     •   Conduct a risk assessment of the e-Government system.
     •   Map Identified risks to the required assurance level.
     •   Select technology based on the NIST e-Authentication technical guidance.
     •   After implementation, validate that the information system has operationally
         achieved the required assurance level.




23
   GAO/AIMD-00-21-3.1, Standards for Internal Control in the Federal Government, November 1999,
page 6 states, “No matter how well designed and operated, internal control … provides reasonable, not
absolute, assurance of meeting agency objectives.”
24
   Office of Management and Budget Memorandum M-04-04, E-Authentication Guidance for Federal
Agencies, December 16, 2003, Attachment A, Section 2, Assurance Levels and Risk Assessments,
pages 4-14.
27
   OIG Memorandum, Evaluation of the Accelerated eDib System - Fifth Assessment, March 10, 2004.
Page 7 - Martin H. Gerry

      •   Periodically reassess the information system to determine technology refresh
          requirements.

The Agency’s risk assessment included the first three of the five steps. Steps four and
five of the criteria were not applicable because the process was still in the pilot phase
when the Agency conducted its risk assessment.

After completing the e-Authentication risk assessment, the Agency developed a strategy
to mitigate the risks identified. SSA’s attentiveness to these areas should contribute to
the effectiveness of the National implementation of the process.

We have three risk-related suggestions for the National implementation of the eCE Click
and Sign process. First, as designed by OMB, the e-Authentication risk assessment is
limited to the risks related to establishing the authenticity of the medical provider. It did
not address other risks, which may have been included in the DMA application risk
assessment, had the eCE Click and Sign process started sooner. Examples of risks not
addressed by the e-Authentication risk analysis are:

      •   What controls are in place to ensure that the submitted eCE files are not modified
          or deleted/lost any time after their receipt by the DDS and used by other SSA
          components during the claim process?

      •   What controls are in place to prevent unauthorized physical and logical access to
          the eCE files?

We reviewed and commented on the DMA risk assessment in a prior memorandum.27
In this memorandum, we reported that the DMA risk assessment needed updating. We
encourage the Agency to include the eCE Click and Sign process when it updates its
DMA risk assessment.

Second, the last SSA Internet screen accessed by a medical provider before submitting
eCE contains language, which acts to certify that the medical provider is electronically
signing for the eCE submitted. This screen, as seen on attachment D, has language
allowing the medical provider to certify that the eCE is accurate. However, it does not
provide the information that this certification is “under the penalty of perjury” and that the
eCE is accurate. Although, we realize that paper consultative examinations do not
contain the “under the penalty of perjury” clause, we encourage the Agency to consider
adding this clause to the aforementioned screen. The addition of this clause may assist
Federal, State, and local prosecutors, as well as SSA attorneys with any fraud
prosecutions or other Social Security litigation involving this new process.

Third, the regulations29 concerning the signature requirements are quite specific that the
CE examination reports will be “… personally reviewed and signed by the medical
source who actually performed the examination.” Also, the regulations state that the
use of a rubber stamp signature or the “… medical source’s signature entered by any
29
     See 20 C.F.R. §§ 404.1519n(e), 416.919n(e).
Page 8 - Martin H. Gerry

other person is not acceptable.” The electronic equivalent of signing the report by
someone other than the medical provider is for someone to obtain and use the medical
provider’s username and password to submit eCE. To promote greater security and
discourage medical provider’s from sharing their username and password, we
encourage the Agency to add a popup window similar to Image 1 below as the medical
provider begins to login to the eData website. Image 1 shows the popup screen
accessed before a user can obtain a password to access information about their
benefits on SSA’s online Social Security Password Services. The addition of this
window may assist Federal, State, and local prosecutors, as well as SSA attorneys with
any fraud prosecutions or other Social Security litigation involving this new process.

Image 1 Social Security Password Services Popup Window, Acknowledgement for Password Services.
Page 9 - Martin H. Gerry

OTHER MATTERS

SSA has initiated a process where claimants no longer have to physically sign a paper
application when they file for Social Security and Supplemental Security Income
benefits. On February 4, 2004, Commissioner Barnhart approved the adoption of the
signature proxy alternatives. Click and Sign is one of those alternatives. Click and Sign
is achieved when a claimant clicks an Internet ‘sign’ button representing an affirmation
of the accuracy of the data and intent to file. In recognition of the significance of the
Click and Sign process to the Agency, the Office of Inspector General is considering a
review of the proxy-signature process used for benefit claims.

There is no expectation for the Agency to formally respond to this document. If you
have any questions or comments, please call me or have your staff contact Kitt Winter,
Director, Data Analysis and Technology Audit Division at (410) 965-9702, or Al Darago
at (410) 965-9710.




                                                S
                                                Steven L. Schaeffer

Attachments

cc:
Thomas P. Hughes, Chief Information Officer for Social Security Administration
William E. Gray, Deputy Commissioner for Systems
Linda S. McMahon, Deputy Commissioner for Operations
Patrick P. O’Carroll, Jr., Acting Inspector General
Fritz Streckewald, Assistant Deputy Commissioner for Disability and Income Security
 Programs
Candace Skurnik, Director, Audit Management and Liaison Staff
                                                              Attachment A, Page 1 of 2


State Operating System Data
SSA made significant improvements in the operating system versions and the
cumulative fix levels between December 2003 and March 2004. Fifteen DDSs were
upgraded from Version 5 Release 1 (V5R1) to Version 5 Release 2 (V5R2) of the
operating system and 23 DDSs improved their cumulative fix levels. Wyoming
improved its cumulative fix to a 2004 level.

The cumulative fix level is expressed as TL plus the Julian date of the cumulative
release. For example, TL02050 is the 50th day of 2002 or February 19, 2002.

            Operating System Version/Release      Operating System Cumulative Fix Level
                                    Upgrade                                Improved
  State     12/31/03     3/31/04     to v5r2       12/31/03     3/31/04       N-No
                                      N-No                                U-Unknown
Atlanta Region
   AL         V5R1          V5R2          1        TL03343       TL03252             N
   FL         V5R2          V5R2          2        TL03252       TL03252             N
   GA         V5R1          V5R1          N        TL03175       TL03175             N
   KY         V5R1          V5R2          3        TL03175       TL03252             1
   MS         V5R1          V5R2          4        TL03175       TL03252             2
   NC         V5R1          V5R2          5        TL03343       TL03252             3
   SC         V5R1          V5R2          6        TL03175       TL03252             4
   TN         V5R1          V5R2          7        TL03175       TL03252             5
Boston Region
   CT        V5R1           V5R1          N        TL02134       TL03175             6
   MA        V5R1           V5R2           8       TL03175       TL03252             7
   ME        V5R1           V5R1          N        TL03175       TL03175             N
   NH        V5R1           V5R2           9       TL03175       TL03252             8
    RI       V5R1           V5R2          10       TL03175       TL03252             9
   VT        V5R1           V5R1          N        TL03175       TL03175             N
Chicago Region
    IL           V5R1       V5R1          N        TL03175       TL03175             N
    IN           V5R1       V5R2          11       TL03175       TL03252             10
    MI           V5R1       V5R1          N        TL03175       TL03175             N
    MN           V5R1       V5R2          12       TL03175       TL03252             11
    OH           V5R2       V5R2          N        TL03252       TL03252             N
    WI           V5R1       V5R1          N        TL03007       TL03175             12
Dallas Region
   AR            V5R1       V5R1          N        TL03175       TL03175             N
   LA            V5R1       V5R1          N        TL03175       TL03175             N
   NM            V5R1       V5R1          N        TL03175       TL03175             N
   OK            V5R2       V5R2          N        TL03252       TL03252             N
                                                          Attachment A, Page 2 of 2



            Operating System Version/Release   Operating System Cumulative Fix Level
                                    Upgrade                             Improved
  State     12/31/03     3/31/04     to v5r2    12/31/03     3/31/04       N-No
                                      N-No                             U-Unknown

   TX         V5R1        V5R2         N        TL03175     TL03252         13
Denver Region
   CO         V5R1        V5R1         N        TL03007     TL03175         14
   MT         V5R1        V5R1         N        TL03175     TL03175         N
   ND         V5R1        V5R1         N        TL03175     TL03175         N
   SD         V5R1        V5R1         N        TL03175     TL03175         N
   UT         V5R1        V5R1         N        TL03175     TL03175         N
   WY         V5R1        V5R2         13       TL03175     TL04077         15
Kansas City Region
   IA        V5R1         V5R2         14       TL03175     TL03252         16
   KS        V5R1         V5R1         N        TL03175     TL03175         N
   MO        V4R5         V4R5         N                    TL02169         U
New York Region
    NJ         V5R1       V5R1         N                    TL03175          U
    PR         V5R1       V5R1         N                    TL03175          U
Philadelphia Region
   DC         V5R1        V5R1         N                    TL03175         U
   DE         V5R2        V5R2         N        TL03161     TL03252         17
   MD         V5R1        V5R1         N        TL03007     TL03175         18
   PA         V5R1        V5R1         N        TL03007     TL03175         19
   VA         V5R1        V5R1         N        TL03175     TL03175         N
   WV         V5R1        V5R2         15       TL03007     TL03252         20
San Francisco Region
   AZ            V5R1     V5R1         N        TL02134     TL03175         21
   CA            V5R2     V5R2         N                                    U
CA-WPSC          V4R5     V4R5         N        TL02169     TL02169         N
    HI           V5R1     V5R1         N        TL03175     TL03175         N
   NV            V5R1     V5R1         N                    TL03175         U
Seattle Region
   AK            V4R5     V4R5         N        TL02169     TL02169          N
   ID            V5R1     V5R1         N        TL03175     TL03175          N
   OR            V5R1     V5R1         N        TL03175     TL03175          N
   WA            V5R1     V5R1         N        TL03175     TL03175          N
                                                             Attachment B, Page 1 of 1


Programming Temporary Fixes

There are a variety of fixes to correct problems or potential problems found within a
particular IBM operating system. Fixes can consist of documentation and/or code.
Fixes are also called Programming Temporary Fixes (PTFs). DDSs need to assess
whether a PTF is good for their operations. While cumulative PTFs are considered the
primary method of preventive maintenance, they are not the only solution to an effective
preventive maintenance strategy. Installation of high impact/pervasive (HIPER), group,
and individual PTFs are also needed.

Cumulative PTF

A cumulative PTF package is the primary method of performing preventive maintenance
for AS/400 operating systems. Cumulative PTFs are updated periodically (usually
quarterly), and contain fixes for a specific release of the operating system and
associated licensed programs.

A cumulative PTF package includes the following fixes.

 •   All HIPER group fixes for the release.
 •   The latest database group PTF for the release (for Version 5 releases only).
 •   All PTFs, including single PTFs and those in group PTFs, that have been ordered a
     minimum number of times when the package is created (normally 35 orders
     worldwide).

Group PTF

A group PTF is a single PTF number that includes multiple and individual PTFs for a
specific function, such as database and HIPER PTFs. It allows a group of PTFs to be
managed as a single entity to reduce complexity when dealing with PTFs.

HIPER PTF

HIPER PTFs fix serious or widespread problems. To prevent downtime on your server,
IBM recommends that you install HIPER PTFs as soon as possible.

Individual PTFs

Individual PTFs are single PTFs. Individual PTFs that are not included in a group PTF
or cumulative PTF package may be critical to DDS operations.
                                                                        Attachment C, Page 1 of 5



AS/400 Operating System Upgrade and Maintenance Guidance

                                                    V. Supplement – DDS AS/400 Platform Security Settings

IV. UPGRADE AND MAINTENANCE GUIDANCE

AS/400 Upgrades

SSA’s AS/400 Operating System Upgrades

SSA has determined that a prudent software upgrade philosophy is to maintain a reasonably
current, IBM-supported operating system product level while also assuring that DDS
production systems continue to function normally. Our experience suggests that some
version upgrades are more significant than others in terms of affecting functionality. When
large changes are implemented in the operating system, it is more prudent to delay the
upgrade until the version has been tested with the DDS application software.

DDSs should normally order an OS/400 release after one month, but no later than two
months, after the release date of the first cumulative Program Temporary Fixes (PTF)
package for the new release. The High Impact/Pervasive (HIPER) fixes should also be
ordered at this time. It is also critical that all PTF cover letters be reviewed to identify any
part of the cumulative PTF package that should not be applied.

For a system upgrade, the vendor of the DDS case processing system should first order and
evaluate the upgrade timely. Once the vendor has completed testing/research and can be assured
that DDS applications will function normally on the new operating system level, or that any
necessary program changes have been made, the vendor and DDS should coordinate the OS/400
software upgrade on the DDS’ AS/400s. If the vendor is an IBM Business Partner, they should
receive advance copies of new versions or releases of the Operating System shortly after the GA
announcement. This will allow them to make sure that their applications are fully compatible
with the new release.

The OS/400 software upgrade should normally be installed on the first AS/400 in a DDS within
one month after physically receiving the software upgrade. However, if DDSs obtain upgrade
support from a vendor, the installation schedule should be coordinated with the vendor. At least
1 week should elapse between additional installations to guarantee stability for the other
AS/400s.

Adherence to this software upgrade policy will enable any problems introduced with the OS/400
software to be experienced, identified, and resolved before the OS/400 software upgrade is
propagated to additional AS/400 systems. In addition, following this software upgrade policy
will enable the DDS AS/400s to maintain a reasonably current OS/400 operating system level.

To obtain new OS/400 releases/versions, DDS IT Staff should call their IBM National Customer
Relationship Representative or IBM National Client Representative. They can also be obtained
through the IBM DDS Gold Service contact in Atlanta, at (770) 863-1788.
DDS Security Document Supplement (December 2001)                                              19
                                                                       Attachment C, Page 2 of 5

                                                   V. Supplement – DDS AS/400 Platform Security Settings

IBM AS/400 Operating System Upgrades

OS/400 upgrades occur when IBM has developed a new version/release of the OS/400 Operating
System and IBM Program Products. IBM does extensive testing of the new version or release of
the Operating System prior to a General Availability (GA) announcement, i.e., a release to the
general public. Generally, most IBM Business Partners (BPs), Value Added Retailers (VARs),
and Application Developers (ADs), through their established relationship with IBM, get
advanced releases or receive the new version or release of the Operating System shortly after the
GA announcement. This allows them to make sure that their products are fully compatible with
the new release.

There are several reasons for users to periodically upgrade their OS/400 Operating Systems.
Every release of OS/400 has a defined Program Services period. The Program Services period
begins when an OS/400 upgrade is announced/released. The ending date of the Program
Services period is included as part of the announcement letter for that particular release of
OS/400. During the Program Services period, IBM will accept reported problems with the
release and, if necessary, IBM will produce corrective fixes. At the end of that Program Services
period, IBM will no longer accept any problems for analysis.
Another reason to upgrade to a current release is that, once a release has reached its end of
Program Services, a user will generally not be able to upgrade in a single step directly to a later
release. If a user cannot upgrade directly to a new release, the user will need to do a multiple-
step upgrade. In other words, the user will need to upgrade to an interim release, and then the
user will need to upgrade to the latest release. A user can also remain too long on a release, so
that if a number of subsequent releases have been made there may be no supported way for the
user to upgrade the OS/400 Operating System. This situation may require expensive custom
services to perform the upgrade from the user’s back-level release.

AS/400 Maintenance
SSA’s AS/400 Maintenance Policy

IBM releases Cumulative PTFs for the AS/400 Operating System and related products
approximately every 3 months. IBM recommends that “Cumulative PTF packages should
be installed every three to four months if there is no change to the equipment or programs
on your system”.

SSA has determined that a prudent maintenance policy is to order the Cumulative PTF Package
after 1 month of its release, but no later than 2 months after the release date. The HIPER PTFs
for the Cumulative PTF maintenance should also be ordered when the Cumulative PTF Package
is ordered.

The Cumulative PTF Package should normally be installed on the first AS/400 within 3 weeks
after physically receiving the maintenance package. However, if a DDS obtains maintenance
support from a vendor, the installation schedule should be coordinated with the

DDS Security Document Supplement (December 2001)                                             20
                                                                       Attachment C, Page 3 of 5

                                               V. Supplement – DDS AS/400 Platform Security Settings

vendor. At least 1 week should elapse between additional installations.

Adherence to this maintenance policy will enable any problems introduced with the
Cumulative PTF Package to be experienced, identified, and resolved before the Cumulative
PTF maintenance is propagated to additional AS/400 systems. In addition, following this
maintenance policy will enable the DDS’ AS/400s to maintain a reasonably current PTF
maintenance level.

To obtain OS/400 Operating System maintenance products, DDS IT Staff can call the IBM
AS/400 Support Line at (800) 237-5511, as well as order them through their IBM AS/400
Electronic Customer Support (ECS) (modem connection) and IBM’s Technical Support Web site
at http://www-912.ibm.com.


IBM AS/400 Operating System Maintenance

The second process in supporting the IBM AS/400 Operating System is regular maintenance.
Maintenance includes the following alerts, fixes, and support:

Alerts
Alerts provide automatic problem prevention notification, defect identification and resolution
information specific to your operating environment. SSA provides this service for all AS/400s
that it has procured.

Program Temporary Fixes (PTFs)
PTFs are fixes for the OS/400 Operating System. They are code changes created to correct
problems or potential problems found within either a particular IBM licensed program or a
particular non-IBM program. PTFs are designed to replace one or more objects in the licensed
program. Generally, PTFs are incorporated in a future full-release version of the operating
system.

High Impact/Pervasive (HIPER) PTFs
HIPER PTFs are those that affect a majority of customers.

Cumulative PTF Packages (CUMs)
CUMs is the primary method of performing preventive maintenance on the OS/400 Operating
System and IBM licensed programs. There are several reasons to routinely install CUMs.
Cumulative PTF Packages contain recommended PTFs that will correct problems, or potential
problems, with the OS/400 Operating System and IBM licensed programs; and they are updated
on a periodic basis. A routine Cumulative PTF Package maintenance strategy will reduce the
potential of unplanned outages and program failures.




DDS Security Document Supplement (December 2001)                                             21
                                                                       Attachment C, Page 4 of 5

                                               V. Supplement – DDS AS/400 Platform Security Settings

Group PTFs
A Group PTF is a single PTF that provides a logical set of fixes affecting a specific function,
e.g., database, HIPERs, etc. Group PTFs are dynamically updated when new fixes become
available for the affected function.

Authorized Program Analysis Report (APAR)
APAR is a problem report specific to an IBM program (and release), with an associated fix
(usually a PTF or workaround).

Standard Defect Support
The OS/400 Operating System comes with Standard Defect Support. If a customer suspects a
code problem, they can call IBM if they have AS/400 Support Line; if they don’t have AS/400
Support Line, they must email, fax, or mail their request to IBM. However, SSA provides
ongoing IBM Support Line services for all AS/400s that have been purchased for the DDS and
SSA communities. IBM will work with the customer to resolve the issue. If necessary, IBM
will provide a work-around (APAR) or code fix (PTF). Standard support will always be for the
current release plus one level back. When a new release/version is made available, three releases
may be supported for a short period of time--the current new release plus the 2 previous levels.

Extended Usage Support
Extended Usage Support provides the standard AS/400 Support Line for versions/releases of
OS/400 and associated IBM software products that are no longer current; i.e., the product is no
longer sold and defect support has been discontinued. Generally, support is provided only for
the current OS/400 release and the two previous releases.

Extended Defect Support
Extended Defect Support provides defect support (APARs and PTFs) for OS/400 and associated
IBM software products that are no longer current; i.e., the product is no longer sold and standard
defect support has been discontinued. Extended Defect Support is only available for a limited
time. Without Extended Defect Support the “fix” would be to upgrade to the current release. It
is unlikely that a PTF will be required for a release that is “out of support.” Extended Defect
Support is a temporary solution generally used by large customers with many machines who
foresee the inability to bring their systems to a supported release in a timely fashion.

IBM AS/400 Software and Hardware Support Web Sites

Following are IBM Web Sites that provide detailed information on IBM AS/400 Operating
System and Hardware support:


1. General Information on Program Services
       http://www-912.ibm.com/supporthome.nsf/document/10000080

2. Software Subscription
       http://www-1.ibm.com/servers/eserver/iseries/sftsol/subscript.htm

DDS Security Document Supplement (December 2001)                                             22
                                                                       Attachment C, Page 5 of 5

                                               V. Supplement – DDS AS/400 Platform Security Settings



3. Support Line
       http://www-1.ibm.com/services/its/us/mus62d1.html

4. Alerts
        http://www-1.ibm.com/services/its/us/alert.html

5. Hardware Maintenance
       http://www-1.ibm.com/services/its/us/hardmain.html




DDS Security Document Supplement (December 2001)                                             23
                                                               Attachment D, Page 1 of 1


Click and Sign Certification Screen

Once the medical provider has logged onto the Internet successfully and has identified
which DDS is to receive the files containing the consultative examination (CE) files, a
certification screen is displayed. By clicking on the “Agree” button, this screen creates
the CE provider’s electronic signature that certifies the accuracy of the CE files
submitted. The Agency refers to this process as the eCE Click and Sign. Image A
shows the details of the eCE Click and Sign screen.

Image A Click and Sign Certification for Electronic Consultative Examination
Submission
